                                   SOCIAL SECURITY
MEMORANDUM
Date:   June 6, 2003                                                     Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Performance Indicator Audit: Payment Accuracy (A-15-02-11086)



        We contracted with PricewaterhouseCoopers (PwC) to evaluate the data used to
        measure 18 of the Social Security Administration’s performance indicators established
        to comply with the Government Performance and Results Act. Attached is the final
        report presenting the results of two of the performance indicators PwC reviewed. The
        objective of this audit was to assess the reliability of the data used to measure the
        accuracy of Old-Age, Survivors and Disability Insurance and Supplemental Security
        Income benefit payments.

        Please comment within 60 days from the date of this memorandum on corrective action
        taken or planned on each recommendation. If you wish to discuss the final report,
        please call me or have your staff contact Steven L. Schaeffer, Assistant Inspector
        General for Audit, at (410) 965-9700.




                                                James G. Huse, Jr.

        Attachment
           OFFICE OF
  THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



 PERFORMANCE INDICATOR
        AUDIT:
   PAYMENT ACCURACY

    June 2003   A-15-02-11086




AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
MEMORANDUM
To:                  Office of the Inspector General
From:                PricewaterhouseCoopers LLP
Date:                May 30, 2003
Subject:             Performance Indicator Audit: Payment Accuracy (A-15-02-11086)


The Government Performance and Results Act (GPRA) of 19931 requires the Social
Security Administration (SSA) to develop performance indicators that assess the
relevant service levels and outcomes of each program activity set forth in its budget.2
GPRA also calls for a description of the means employed to verify and validate the
measured values used to report on program performance.3
The objective of this audit was to assess the reliability of the data used to measure the
following Fiscal Year (FY) 2002 GPRA performance indicators:

Performance Indicator                                                          FY 2002 Goal


Percent of OASDI payment outlays “free” of overpayments and underpayments (based
on non-medical factors of eligibility)
                                                               Overpayments            99.8%4
                                                               Underpayments           99.8%5


Percent of SSI payment outlays “free” of overpayments and underpayment (based on
non-medical factors of eligibility)
                                                               Overpayments            94.7%6
                                                               Underpayments           98.8%7


See Appendix A for a description of the audit scope and methodology.


1
    Public Law No. 103-62, 107 Stat. 285.
2
    31 U.S.C. 1115 (a) (4).
3
    31 U.S.C. 1115 (a) (6).
4
 Social Security: Performance Plan for Fiscal Year 2003, Revised Final Performance Plan for Fiscal
Year 2002, page 86.
5
    Ibid.
6
    Ibid, page 87.
7
    Ibid.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                        1
BACKGROUND

SSA offers retirement and long-term disability programs to the general public. Old-Age,
Survivors and Disability Insurance (OASDI) is authorized under title II of the Social
Security Act.8 Through the OASDI program, eligible workers and sometimes their family
receive monthly benefits if they retire at an appropriate age or are found to have a
disability that either prevents them from engaging in substantial gainful activity for at
least 12 months or can be expected to result in death.9 Supplemental Security Income
(SSI) is authorized under title XVI of the Social Security Act and provides monthly
payments to aged and disabled individuals based on financial need and medical
requirements.10
SSA measures payment accuracy through Stewardship and Index of Dollar Accuracy
(IDA) reviews. Stewardship reviews measure the quality and accuracy of recurring
payments provided by SSA and are reported to Congress in the Stewardship Reports.
IDA reviews focus on the accuracy of initial claim payments. This performance indicator
audit evaluated payment accuracy for the OASDI and SSI Stewardship reviews.
SSI Stewardship reviews began in 1975, Retirement and Survivors Insurance (RSI)
Stewardship reviews began in 1981, and Disability Insurance (DI) Stewardship reviews
began in 1997.11 SSA reports the RSI and DI results as one measure (OASDI) in the
accuracy reviews. The Stewardship reviews are conducted for a sample of
beneficiaries who received recurring payments during the review month. The review
focuses on verifying the factors that lead to monthly payments. See Appendix B for a
workflow and description of the review.
The Stewardship review is an examination of all payments made on the sampled
beneficiaries’ Social Security numbers (SSN). SSA treats sampled SSNs as “accounts”
and reviews all payments associated with those accounts. The OASDI Stewardship
review examines the account to determine whether the payment is accurate. The SSI
Stewardship review examines the account to determine whether the recipient is eligible
to receive SSI payments and if the payment is accurate.
Within SSA, the Office of Quality Assurance and Performance Assessment (OQA)
randomly selects OASDI and SSI beneficiaries each month to participate in the review.
The Assistance and Insurance Program Quality Branch, or regional OQA offices,
receive the sample participants’ information from OQA, schedule and conduct
interviews with the recipients if necessary, and determine whether there is an over or
underpayment based on non-medical factors of eligibility. The results of the review are
entered into the SSI Quality Assurance (QA) System or the RSI QA System. OQA
calculates the performance indicator based on the outcome of the review.


8
    42 U.S.C. 401 et seq.
9
    42 U.S.C. 423 (d)(1).
10
     42 U.S.C. 1381 et seq.
11
     SSA considers the OASDI Stewardship review a combination of the RSI and DI Stewardship reviews.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                     2
Data from FYs 2001 and 2002 was not available for inclusion in this report. We used
the latest available data, FY 2000, to recalculate the performance indicators. Our
review encompassed four performance indicators.
   1. Percent of OASDI payment outlays free of overpayments.
   2. Percent of OASDI payment outlays free of underpayments.
   3. Percent of SSI payment outlays free of overpayments.
   4. Percent of SSI payment outlays free of underpayments.
The formula used to calculate each performance indicator follows.

                                     Overpayment (or underpayment) dollars
OASDI Payment Accuracy =      1-     -------------------------------------------------   * 100
                                                All OASDI payments


                                     Overpayment (or underpayment) dollars
SSI Payment Accuracy     =    1-     -------------------------------------------------   * 100
                                                All SSI payments




The payment accuracy rate performance indicators are estimates derived from sampled
cases and will not generally equal the true accuracy rates for all payments.
Accordingly, SSA calculates the precision, or margin of error, for each of the estimates.
The margin of error provides a range of values that are expected to contain the true
population accuracy rate with some level of confidence. Appendix C provides more
information on SSA’s methodology for calculating the margin of error. The margin of
error is not directly part of the payment accuracy rate indicator. Rather, it provides
information to understand how close the estimated accuracy rate is expected to be to
the true accuracy rate.
As part of the financial statement audit, PricewaterhouseCoopers (PwC) examined
SSA’s payment accuracy for both the OASDI and SSI programs. PwC’s FY 2001
financial statement audit included a review of the OASDI sample selection methodology
and the SSI selection programs. PwC recommended SSA integrate their selection
programs, improve the documentation, and use the t-distribution instead of the normal
distribution to calculate the margin of error. In FY 2002, the PwC financial statement
audit included a review of the SSI sample selection methodology and the OASDI
selection programs. The financial statement audit included a review of any changes
made to the sample selection methodology and programs. To avoid duplication of effort
with the financial statement audit, this performance audit focused on replication of the
payment accuracy performance indicators. Our evaluation of SSA’s methodology and
programs builds on findings from the financial statement audit for both OASDI and SSI.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                    3
RESULTS OF REVIEW

We evaluated payment accuracy for both the OASDI and SSI programs. We found
SSA’s methodology for calculating accuracy rate performance indicators to be
appropriate and statistically valid. We successfully replicated the FY 2000 performance
indicators from SSA’s Performance and Accountability Report for FY 2001. We also
examined the more detailed Payment Accuracy (Stewardship) Reports that SSA
prepares and issues to Congress. Overall, we found the performance indicators to be
appropriate GPRA measures. They are direct measures of outcomes and support
SSA’s strategic goal, “…to ensure the integrity of Social Security programs, with zero
tolerance for fraud and abuse.”
SSA provides the margin of error in the Stewardship Reports, but does not include this
information in the final Performance and Accountability Report. While SSA is not
required to include this information in the Performance and Accountability Report, the
margin of error provides valuable information on the precision of the statistical
estimates.
We found that SSA’s margin of error, as reported in the Stewardship reports, is not
calculated appropriately for the OASDI payment accuracy rates. When calculating the
margin of error, OQA did not weight the error dollars12 to the total population. In
addition, the margin of error equations contain an incorrect factor for both the OASDI
and SSI programs. After recalculation, the margin of error for OASDI payment accuracy
rates decreased and the margin of error for SSI payment accuracy rates slightly
increased.
Neither the lack of a published margin of error nor the incorrect margin of error
calculations change the fundamental result that the performance indicators are
appropriate and statistically valid. However, these deficiencies do represent areas for
improvement. Additionally, we noted that SSA could improve its documentation by
saving the sample data used to calculate the performance indicators.


PERFORMANCE INDICATOR DATA WAS RELIABLE


This audit consisted of recalculating the payment accuracy rates for the OASDI
program, which is a combination of the RSI and DI programs, and the SSI program. We
recalculated the dollar-weighted percentage of overpayments and underpayments for
the RSI, DI, and SSI programs, based on FY 2000 data from OQA. Our recalculations
matched the payment accuracy reported by SSA for FY 2000.




12
  For overpayments, the error dollars is the amount paid to customers in error. For underpayments, the
errors dollars are the total dollars that should have been paid to customers, but were not.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                      4
OQA does not separate and retain data used to calculate the accuracy rates


After calculating the official payment accuracy rates, OQA does not separate and retain
the data. In addition, subsequent changes can be made to the data. To complete our
evaluation, we recalculated the accuracy rates using the most current Stewardship
review data for FY 2000. Our results matched OQA's original results for all accuracy
rates except DI underpayment. OQA retains a summary diagnostic report of the data
used to calculate the payment accuracy rates. From a review of this diagnostic report
we inferred that a record had changed between the original data and the data used in
our validation. After adjusting for this record, our recalculated accuracy rates matched
OQA's original accuracy rates.


Margin of error is not published with the accuracy rate estimates


SSA conducts the Stewardship Review for a relatively small sample of cases and uses
the sample data to develop an accuracy estimate for all recurring payments. SSA also
calculates a margin of error for each accuracy estimate. Margin of error is an important
element in assessing the precision of a statistical estimate. Results with a large margin
of error do not provide meaningful information on the true accuracy rate for the entire
population.
The SSI Stewardship Report identifies margin of error (termed ‘precision’) for the SSI
performance indicators. The OASDI Stewardship Report identifies margin of error
(termed ‘precision’) for the separate RSI and DI overpayment/underpayment accuracy
rates but not for the overall OASDI performance indicator. The FY 2001 Performance
and Accountability Report does not provide the margin of error results for either SSI or
OASDI. As a result, the general public is not informed of the precision of the accuracy
rates.


Margin of error is not calculated correctly


Through a series of interviews, we found that OQA calculates the margin of error for the
accuracy rates using a statistical technique known as random group. Our
understanding of this approach is found at Appendix C. We agree that this technique is
reasonable and appropriate. However, during our review, we found two issues with
OQA’s application of the procedure.
   1. We found an inconsistency in the margin of error calculations for the OASDI
      program. OQA indicated it weights error dollars when using the random group
      approach to calculate the margin of error. However, OQA used unweighted error
      dollars to calculate the margin of error reported in the Stewardship report. After
      weighting the error dollars and recalculating the margin of error, we found that
      the margin of error is smaller than originally provided in the Stewardship reports.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                         5
      2. OQA also uses an incorrect factor in calculating the margin of error (normal
         distribution as opposed to t-distribution)13. As a result, each margin of error
         (including both OASDI and SSI) has been understated by 15 percent. In other
         words, the margin of error is larger than originally provided in the Stewardship
         reports. Appendix C provides a more detailed explanation of this difference.
The following table shows the margin of error values reported by SSA in its Stewardship
Reports and the recalculated values. Note that both issues above apply to the OASDI
margin of error calculations and impact the margin of error in opposite directions. The
net effect reflected in the table below is that the first issue has a much greater impact
than the second issue on the final margin of error values.


                       Accuracy Rate Margin of Error at 95% Confidence
                                               Estimated      SSA      Recalculated
                                               Accuracy    Reported     Margin of
                                                 Rate      Margin of      Error
                                                              Error
                  DI Overpayment                99.62%     +/- 0.41%    +/- 0.28%
                  DI Underpayment               99.61%     +/- 1.11%    +/- 0.78%
                  RSI Overpayment               99.96%     +/- 0.30%    +/- 0.04%
                  RSI Underpayment              99.89%     +/- 0.37%    +/- 0.16%
                  SSI Overpayment               93.60%     +/- 0.56%    +/- 0.65%
                  SSI Underpayment              98.60%     +/- 0.22%    +/- 0.25%

We recalculated the margin of error for all over and underpayment performance
indicators. The recalculated margin of error for DI and RSI over and underpayments
was lower than SSA previously reported. For example, SSA calculated the DI
overpayment as 99.62 +/- 0.41 percent. We recalculated the true accuracy rate as
99.62 +/- 0.28 percent. The recalculated margin of error for the SSI over and
underpayments was slightly higher than SSA previously reported. While these margin
of error discrepancies do not change the estimated accuracy rates, an incorrect margin
of error provides misleading information on the precision of the estimated accuracy
rates.




13
     See Appendix C for further explanation.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                           6
OTHER MATTERS

The Office of Management and Budget’s (OMB) Circular No. A-1114 defines payment
accuracy as:
          “Erroneous payments are payments made under the programs listed in
          Exhibit 57 (for SSA, these programs are OASI, DI, and SSI) that should not have
          been made or were made for an incorrect amount…Examples of erroneous
          payments include payments to ineligible persons or the wrong organizations,
          payments in the wrong amount, payments for ineligible services, duplicate or
          other overpayments, and payments for services never received. Erroneous
          payments may be due to procedural or administrative errors made by the payor
          (e.g., providing incorrect account numbers in payment instructions), or errors or
          fraud by payees or claimants (e.g., under reporting of income by beneficiary).
          Covered payments include overpayments and underpayments made by the
          Federal Government, its direct contractors, and by States or other grant
          recipients administering Federal programs.”
In the General Accounting Office’s (GAO) October 2001 executive guide, Strategies to
Manage Improper Payments, GAO provides examples of improper payments as
“…inadvertent errors, payments for unsupported or inadequately supported claims,
payments for services not rendered, payments to ineligible beneficiaries, and payments
resulting from outright fraud and abuse by program participants and/or federal
employees.”
SSA’s policy and operation manual defines an overpayment as “…the total amount an
individual received for any period which exceeds the total amount which should have
been paid for that period.”15 SSA has three performance indicators to measure
payment accuracy in its FY 2002 Annual Performance Plan:
         OASDI payment accuracy
         SSI payment accuracy, excluding unpreventable errors
         SSI payment accuracy, including preventable and unpreventable errors
SSA’s FY 2000 title II Stewardship report states that for OASDI payment accuracy,
“Error dollars refer to incorrect payment made to a case as a whole.” Overpayments
are defined as payment in a sample month that “…was more than the amount that
should have been paid.” SSA’s FY 2000 title XVI Stewardship report describes SSI
payment accuracy as the correct amount, or what should have been paid, compared to
the amount that was paid to the recipient. In addition, SSA measures the SSI accuracy
rate exclusive of unavoidable errors, where unavoidable errors are errors that “…result
from limitations in the Agency’s computer systems and/or limitations placed on SSA by
law.”

14
  OMB Circular No. A-11, Transmittal Memorandum No. 74, Subject: Preparing and Submitting Budget
Estimates, Part 1, Subpart III. Section 57, dated July 7, 2001 and revised November 8, 2001.
15
     See SSA Policy and Operation Manual section GN 02201.001.A.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                 7
For example, SSA does not include payments made after a beneficiary’s death as
overpayments for both the OASDI and SSI performance indicators. OMB and GAO
definitions would include these in the payment accuracy calculations. Also, SSA does
not include errors based on medical factors of eligibility for the OASDI and SSI payment
accuracy calculations while OMB and GAO definitions would include these in the
calculation. Thus, SSA’s definition of payment accuracy is narrower than OMB and
GAO’s definitions.


CONCLUSIONS AND RECOMMENDATIONS

Our overall conclusion is that the performance indicators are accurate and appropriate
GPRA measures. OQA calculates the SSI, RSI, and DI payment accuracy
appropriately. OQA also compiles the OASDI payment accuracy from the RSI and DI
results appropriately. Our audit identified four opportunities for improvement. Our
recommendations are as follows.


1. Retain sample data used to calculate accuracy rates
SSA should retain the exact set of data used to generate the final accuracy estimates.
This will improve the ability of third parties to review and validate accuracy rates in the
future.


2. Show the margin of error in future Performance and Accountability Reports
It is a best practice to include the margin of error when reporting statistical estimates.
The margin of error is an important element in determining the value of statistical
estimates. This is especially true for the payment accuracy performance indicators
because even very small differences in the accuracy rates result in tens of millions of
dollars in total program costs. For example, the Stewardship report estimates that
every 0.1 percent difference in the accuracy rates is approximately $54 million for the DI
program and $348 million for the RSI program.
We note that the FY 2001 Performance and Accountability Report references the
OASDI and SSI Stewardship Report, and the Stewardship Reports contain margin of
error data. However, these Stewardship Reports are not generally available to the
public and we do not believe that simply referencing them represents sufficient
documentation. We recommend that margin of error information be directly reported
with the overpayment/underpayment accuracy rate performance indicators.


3. Accurately calculate margin of error
SSA should correct both identified issues with the margin of error calculations:
   a) Calculate OASDI margin of error using weighted error dollars consistent with the
      approach for the SSI accuracy calculations.

Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                            8
   b) Calculate the margin of error using the appropriate value from the t-distribution
      rather than from the normal distribution. PwC identified this issue and made the
      same recommendation during the FY 2001 financial statement audit of the
      OASDI accuracy rates. OQA agreed with our findings and recommendations but
      this occurred after the FY 2000 payment accuracy results had been published.
      We understand that SSA has made the change for FY 2001. We recommend
      this change be made for the SSI program as well.


4. Measure payment accuracy in accordance with OMB and GAO definitions
We recommend that SSA modify its payment accuracy performance indicators so that
they are consistent with OMB and GAO definitions. In addition, we recommend that
SSA measure preventable errors as a separate payment accuracy performance
indicator for both OASDI and SSI. Finally, we recommend that SSA specifically
document the error types included in each payment accuracy performance indicator.


AGENCY COMMENTS


In response to our draft report, SSA agreed with recommendations 1 through 3 and
agreed in part with recommendation 4. The full text of SSA’s comments can be found in
Appendix E.
With respect to recommendation 4, SSA agrees that it should measure payment
accuracy in accordance with OMB and GAO definitions and believes that its payment
accuracy measures are in accordance with both OMB’s and GAO’s guidelines.
SSA disagreed with part 2 of recommendation 4, that it should establish a separate
performance indicator for preventable and unpreventable errors in OASI. Further, the
Agency stated it has already established separate performance indicators for
preventable and unpreventable errors for the SSI program.
SSA agrees with the 3rd part of recommendation 4 to specifically document the error
types included in each payment accuracy performance indicator. However, SSA states
the documentation already exists in SSA’s quality assurance manuals, OASDI and SSI
payment accuracy (stewardship) reports and SSA’s Annual Performance Plan.

PWC RESPONSE

Although SSA states it measures payment accuracy in accordance with OMB and GAO
definitions, we continue to believe that its definition is more narrow than OMB and GAO
definitions. We recommend the Agency continue to work with OMB and GAO to refine
the definition of its payment accuracy calculation.

With respect to the technical comments, we only looked at the two performance
indicators listed on page one. We based our performance indicators names on the APP
at the time of the audit.

Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                       9
                                             Appendices
APPENDIX A – Scope and Methodology
APPENDIX B – Flowcharts and Descriptions
APPENDIX C – Statistical Methodology for Margin of Error Calculation
APPENDIX D – Acronyms
APPENDIX E – Agency Comments




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)
                                                                    Appendix A
 Scope and Methodology
We conducted this audit to examine Social Security Administration’s (SSA) Fiscal Year
(FY) 2002 payment accuracy performance indicators. SSA developed these
performance indicators to meet the requirements of Government Performance and
Results Act (GPRA). Because FY 2002 payment accuracy data and results were not
available at the time of this audit, we used the latest available data (FY 2000) in our
evaluation of the controls and the final reported performance indicators. In addition, we
evaluated differences in methodology between FYs 2000 and 2002.
We performed our testing from May 1, 2002 through July 18, 2002 as follows.
      Reviewed the sampling selection and weighting procedure;
      Recalculated the sampling estimates and sampling error estimates;
      Discussed the process and techniques used to calculate the payment accuracy
       rates with SSA staff;
      Obtained documentation on the sampling methodology, including the sampling
       selection and the weighting procedure;
      Discussed the techniques employed by SSA to calculate the sampling error
       estimates with Office of Quality Assurance and Performance Assessment (OQA)
       staff;
      Reviewed the sampling methodology and verified that SSA procedures were
       statistically sound;
      Obtained payment accuracy data, including Social Security number, amount
       paid, dollar error, and sampling weight;
      Recalculated the payment accuracy rates; and
      Verified that the recalculated payment accuracy rates were the same as the
       accuracy reported by SSA.
In conducting this audit, we also:
      Reviewed SSA's Accountability Report for FY 1999, Annual Performance Plan for
       FY 2001, and Revised Final Performance Plan for FY 2002 to determine the
       baseline data, definition, and data source for the performance indicator;
      Reviewed GPRA and Office of Management and Budget guidance related to
       GPRA; and
      Interviewed OQA and Office of Strategic Management policy and program staff to
       document the methodologies and procedures used to produce performance data
       for this indicator.



Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                         A-1
Our audit was limited to testing at SSA’s Headquarters in Woodlawn, Maryland. The
procedures we performed were in accordance with the American Institute of Certified
Public Accountants’ Statement on Standards for Consulting Services and the General
Accounting Office’s Government Auditing Standards (“Yellow Book”) for performance
audits.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                     A-2
                                                                Appendix B
Flowcharts and Descriptions




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)
                            Payment Accuracy - title II and title XVI



                                                                   Calculate pay ment
  Select cases to rev iew                       Rev iew cases
                                                                       accuracy




Title II and title XVI payment accuracy:


       Select cases to review.
       Review of cases.
       Calculate payment accuracy.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                           B-1
                                       Select cases to review - title XVI




                                                                                                       SSI QA Sy stem
                    OSSAS extracts 2    OSSAS selects            OSSAS selects       OSSAS uploads
                                                                                                       sends electronic    Electronic
 Annual selection    segments f rom       the FO by             cases to rev iew    sample on SSI QA
                                                                                                        notif ication to   notif ication
                         SSR               "cluster"            f rom FO clusters       Sy stem
                                                                                                           AIPQB




Select cases to review – title XVI:


       The Office of Statistics and Special Area Studies (OSSAS) extracts two segments from the Supplemental Security
        Record (SSR).
       OSSAS selects field offices (FO) by cluster based on travel costs for a reviewer to conduct an in-home interview.
       OSSAS selects cases to review from the list of FOs in the previous stage.
       OSSAS uploads sample on SSI QA System.
       SSI QA System sends electronic notification to Assistance and Insurance Program Quality Branch (AIPQB), or the
        Regional OQA offices.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                                      B-2
                                                   Review cases - title XVI
                       AIPQB receiv es
                       sy stem outputs:
                            -SSIRD
                            -SEQY
                        -Other alerts                                                                                              AIPQB rev iewer
                                                                                 AIPQB contacts              AIPQB rev iews
  Electronic                                        AIPQB creates a                                                                completes SSA-             AIPQB requests
                                                                                 recipients to set         and collects case
  notif ication                                    rev iew f older with                                                             8538 summary                third party
                                                                                 appointment and            inf ormation f rom
                                                    all documentation                                                              and recalculates             v erif ication
                          FOs receiv e                                           obtain releases                 recipient
                                                                                                                                   benef it pay ment
                        notice to send
                       f older to AIPQB




     AIPQB accesses       AIPQB rev iewer
      other matches:     attempts to v erif y            Does AIPQB         No         AIPQB returns             AIPQB updates          Updated SSI QA
           -INS          recipient eligibility           identif y any
                                                                                     claim f older to FO        SSI QA database           database
          -OCSE             and benef it               discrepancies?
           -VA                amount

                                                                 Y es


                                                                                                                                     AIPQB completes
                                                     AIPQB completes              AIPQB calculates                                   SSA-93 f orm and
                                                                                                              AIPQB updates
                                                     benef it calculation           ov er/under                                       f orwards f orm
                                                                                                             SSI QA database
                                                        worksheet                    pay ment                                        and claim f older to
                                                                                                                                             FO




                                                                                                                                   AIPQB retains
                                                    Does FO                 FO and AIPQB               AIPQB maintains            SSA-8538 f or 5
                                                                    Y es                                                                                    Updated SSI QA
                                                     dispute                    resolv e               rev iew f older f or          y ears and
                                                                                                                                                              database
                                                    rev iew?                 dif f erences                18 months              disposes of case
                                                                                                                                         f ile

                                                            No


                                                                             AIPQB ensures
                                                 FO must correct
                                                                              the correction
                                                  the def iciency
                                                                            was made within
                                                 within 30 day s
                                                                                 30 day s




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                                                                                    B-3
Review cases - title XVI:


      AIPQB receives electronic notification and system outputs, including the SSI Record Display (SSIRD), the
       Summary Earnings Query (SEQY), and other alerts, and FOs receive notice to send folder to AIPQB.
      AIPQB creates a review folder and adds all documentation.
      AIPQB contacts recipients to set appointment and obtain releases.
      AIPQB reviews and collects case information from recipients.
      AIPQB reviewer completes SSA-8538 summary and recalculates benefit payment.
      AIPQB requests third-party verification.
      AIPQB accesses other matches, such as the Immigration and Naturalization Service (INS), Office of Child Support
       Enforcement (OCSE), and Veterans Affairs (VA).
      AIPQB reviewer attempts to verify recipient eligibility and benefit amount.


   Does AIPQB identify any deficiencies? If AIPQB does not detect any deficiencies, they return the claim folder to the
   FO and update the SSI QA data base. If AIPQB does identify deficiencies, they do the following.
      AIPQB completes the benefit calculation worksheet to calculate the over or underpayment.
      AIPQB updates the SSI QA data base.
      AIPQB completes SSA-93 form and forwards the form and claim folder to the FO.


   Does the FO dispute the review? If the FO disputes the review, they resolve their differences with AIPQB. AIPQB
   maintains the review folder for 18 months, retains the SSA-8538 for 5 years, disposes of the case file, and updates the
   SSI QA data base. If the FO does not dispute the review, the FO must correct the deficiency within 30 days. AIPQB
   ensures the correction was made within 30 days, maintains the review folder for 18 months, retains the SSA-8538 for
   5 years, disposes of the case file, and updates the SSI QA data base.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                       B-4
                                         Select cases to review - title II



                      OSDD uses                                  OSSAS selects                       RMAS sends
                                         OSSAS selects
                    RETAP program to                            cases to rev iew,   OSSAS uploads     electronic        Electronic
 Annual selection                          the FO by
                    select 1 of ev ery                            based on FO       sample on RMAS   notif ication to   notif ication
                                            "cluster"
                       500 cases                                    "cluster"                           AIPQB




Select cases to review – title II:


       The Office of Software Design and Development (OSDD) uses the RETAP program to select 1 of every 500 cases.
       OSSAS selects FOs by cluster based on travel costs for a reviewer to conduct an in-home interview.
       OSSAS selects cases to review from the list of FOs in the previous stage.
       OSSAS uploads sample on RMAS.
       RMAS sends electronic notification to AIPQB.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                                   B-5
                                                                            Review cases - title II
                             AIPQB requests
                            claim f olders f rom
                                 the PSC                                                                         AIPQB rev iewer                                                                  Rev iewer
                                                                                                                                                Is the
                                                             AIPQB receiv es            AIPQB creates            completes SSA-                                         AIPQB schedules           compares
   Electronic                                                                                                                                benef iciary      No
                                                            f older and begins        rev iew f older with        2930 summary                                             in-person          inf ormation f rom
   notif ication                                                                                                                             under 16 or
                                                                desk rev iew           all documentation         and recalculates                                           interv iew        benef iciary to the
                                                                                                                                              ov er 70?
                             AIPQB gathers                                                                       benef it pay ment                                                             SSA-2930 f orm
                                queries:
                            NUMIDENT,SEQY                                                                                                             Y es
                            DEQY , MBR, FCER
                                                                                                                                            AIPBQ contacts
                                                                                                                                             benef iciary by
                                                                                                                                                phone
                                                                                                                                            (approximately
                                                                                                                                                 80%)




                       No         AIPQB enters                    Central OQA HQ
   Does AIPQB
                                results of rev iew                selects 10% to                     AIPQB returns                   Updated RSI QA
   identif y any
                                   into RSI QA                   rev iew f or AIPQB                 case f ile to PSC                   sy stem
 discrepancies?
                                     sy stem                       consistency
           Y es


AIPQB completes
benef it calculation
   worksheet




AIPQB calculates
   ov er/under
    pay ment



                                                      Central OQA HQ
AIPQB documents           AIPQB f orwards                                                                           Operating                                                                AIPQB retains
                                                         rev iews f ile,                                                                    AIPQB ensures
discrepancies on        f ile to Central OQA                                                                       component                                         AIPQB maintains        SSA-2930 f or 5
                                                       updates RSI QA              Does PSC              No                                  the correction
     SSA-93                    HQ f or a                                                                            perf orms                                       rev iew f olders f or      y ears and
                                                         sy stem, and            rebut f indings?                                          was made within
 and updates RSI             consistency                                                                        correctiv e action                                       18 months            disposes of
                                                     f orwards SSA-93                                                                           45 day s
   QA sy stem                   rev iew                                                                          within 45 day s                                                                casef ile
                                                        and f ile to PSC
                                                                                            Y es

                                                                                 PSC and AIPQB
                                                                                       resolv e
                                                                                                                                                                                            Updated RSI QA
                                                                                 dif f erences and
                                                                                                                                                                                               sy stem
                                                                                 update RSI QA
                                                                                       sy stem




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                                                                                                                       B-6
Review cases – title II:


      AIPQB requests claim folders from the program service center (PSC).
      AIPQB gathers queries, including a query of the NUMIDENT and the Master Beneficiary Record (MBR) and the
       Detailed Earnings Query (DEQY), SEQY and Full Claims Earnings Record (FCER).
      AIPQB receives folder and begins desk review.
      AIPQB creates a review folder with all documentation.
      AIPQB reviewer completes SSA-2930 summary and recalculates benefit payment.
Is the beneficiary under 16 or over 70? If yes, the AIPQB contacts the beneficiary by telephone. If no, AIPQB schedules
an in-person interview. The reviewer compares information from the beneficiary to information on the SSA-2930 form.
Does AIPQB identify any deficiencies? If no, AIPQB enters the results of the review into the RSI QA system. The Central
OQA Headquarters (HQ) selects 10 percent of cases to review for AIPQB consistency. AIPQB returns the case file to
PSC. If yes, the following occurs.
      AIPQB completes the benefit calculation worksheet to calculate the over/under payment.
      AIPQB completes a SSA-93 form and forwards the file to Central OQA Headquarters for a consistency review.
      The Central OQA HQ forwards SSA-93 form and file to PSC.
Does PSC rebut findings? If yes, the PSC and AIPQB resolve the differences. AIPQB maintains a review folder for 18
months, retains the SSA-2930 for 5 years, and disposes of the case file. If no, the operating component performs the
corrective action within 45 days. AIPQB ensures the correction was made within 45 days. AIPQB maintains a review
folder for 18 months, retains the SSA-2930 for 5 years, and disposes of the case file.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                       B-7
                                   Calculation of payment accuracy
                                          title II and title XVI




 Updated RSI QA
                                                                                                         OQA creates and
    sy stem
                          OQA extracts           OQA weights                                               publishes
                                                                      OQA calculates                      stewardship
                          accuracy data        cases to sample                                                             Accuracy rates
                                                                    the accuracy rate*                       report
                          f rom sy stems      size and univ erse
 Updated SSI QA
    sy stem



                                                                   *[   1- projected errors in dollars    ]
                                                                               total pay ments




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                                               B-8
Calculation of payment accuracy for title II and XVI:


      OQA pulls accuracy data from the RSI QA system and the SSI QA system.
      OQA weights cases to sample size and universe.
      OQA calculates the accuracy rate by dividing the projected dollar errors by the total payments and subtracting the
       results from one.
      OQA creates and publishes the stewardship report.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                                        B-9
                                     Appendix C
Statistical Methodology for Margin of Error
Calculation
Social Security Administration (SSA) determines the margin of error (or precision) using
a statistical technique known as the random group approach. SSA performs this
technique by taking the full set of sample data, called the parent sample, and
partitioning it into 10 groups. Each sample record is included in 1 of the 10 groups
based on the seventh digit of the Social Security number for that record.
First, the Office of Quality Assurance and Performance Assessment (OQA) estimates
the weighted dollar accuracy, θ , from the parent sample. OQA reports this estimate in
the Stewardship reports.
Second, OQA separates the data into 10 groups and estimates the weighted dollar
accuracy for each group, θ i . SSA then calculates the margin of error as



Margin of Error =  ± zα / 2 Var (θ ) 
                                       
          Where
                               k
                                 (θ i − θ ) 2
                  Var (θ ) = ∑                and k is the number of groups
                             i =1 k ( k − 1)

                   z α/2 = 1.96 for 95% confidence (α = 0.05)
                  θ i = Accuracy rate for the ith random group (i = 1, 2, ...10)


Under the random group approach, OQA uses a small number of groups to calculate
the margin of error. According to statistical literature,16 if the number of groups is small,
it is more appropriate to use the t-distribution than the normal distribution. As a result,
OQA should calculate the margin of error as:

Margin of ErrorPwC =  ± t α / 2,( k −1) Var (θ ) 
                                                   
          Where
                   tα/2,(k -1) = 2.26 for 95% confidence (α = 0.05, k = 10)



1
    Wolter, Kirk M. (1985). Introduction to Variance Estimation. New York: Springer-Verlag. p. 23.


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                                        C-1
We recommend using the t-distribution (where t = 2.26) instead of the normal
distribution (where z = 1.96) because OQA uses a small sample size to estimate the
margin of error under the random group approach. As a result, OQA results understate
the margin of error by a factor of 1.15 (2.26/1.96) or 15 percent.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                    C-2
                                                                Appendix D
Acronyms
AIPQB         Assistance and Insurance Program Quality Branch
DEQY          Detailed Earnings Query
DI            Disability Insurance
FCER          Full Claims Earnings Record
FO            Field Office
FY            Fiscal Year
GAO           General Accounting Office
GPRA          Government Performance and Results Act
HQ            Headquarters
IDA           Index of Dollar Accuracy
INS           Immigration and Naturalization Service
MBR           Master Beneficiary Record
OASDI         Old-Age, Survivors and Disability Insurance
OCSE          Office of Child Support Enforcement
OMB           Office of Management and Budget
OQA           Office of Quality Assurance and Performance Assessment
OSDD          Office of System Design and Development
OSSAS         Office of Statistics and Special Area Studies
PSC           Program Service Center
PwC           PricewaterhouseCoopers LLP
QA            Quality Assurance
RSI           Retirement and Survivors Insurance
SEQY          Summary Earnings Query
SSA           Social Security Administration
SSI           Supplemental Security Income
SSIRD         SSI Record Display
SSN           Social Security number
SSR           Supplemental Security Record
VA            Department of Veterans Affairs


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)
                                                                Appendix E
Agency Comments




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)
                                         SOCIAL SECURITY
MEMORANDUM


Date:       May 30, 2003                                                   Refer To: S1J-3

To:         James G. Huse, Jr.
            Inspector General

From:       Larry W. Dye
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, "Performance Indicator Audit:
            Payment Accuracy” (A-15-02-11086)—INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report
           content and recommendations are attached.

           Staff questions may be referred to Laura Bell at extension 52636.

           Attachment:
           SSA Response




           Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                        E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT “PERFORMANCE INDICATOR AUDIT: PAYMENT ACCURACY” (AUDIT
NO. A-15-02-11086



We appreciate the opportunity to review and comment on the draft report, and are
pleased with your conclusion that the performance indicators are accurate and
appropriate Government Performance Results Act (GPRA) measures.


Our responses for the specific recommendations are provided below. We are also
providing a technical comment that should be included to enhance the accuracy of the
report.


Recommendation 1


The Social Security Administration (SSA) should retain sample data used to calculate
accuracy rates.


SSA Response


We agree, and have already taken action to retain the exact set of data used to
generate the final accuracy estimates.


Recommendation 2


SSA should show the margin of error in future Performance and Accountability Reports
(PAR).


SSA Response


We agree, and we will include the margin of error when we submit the Title II and Title
XVI stewardship data for inclusion in the next Performance and Accountability Report
(PAR).




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                        E-2
Recommendation 3


SSA should accurately calculate margin of error.


SSA Response


We agree, and are now calculating the margin of error using the appropriate value from
the T-distribution for both the Old Age and Survivors Disability Insurance (OASDI) and
Supplemental Security Income (SSI) payment accuracy reviews.
PricewaterhouseCoopers (PwC) was advised of the action we took on this
recommendation in the August 2002 update to PwC’s Fiscal Year 2001 Management
Letter.
Recommendation 4


SSA should measure payment accuracy in accordance with the OMB and GAO
definitions. SSA should measure preventable errors as a separate payment accuracy
performance indicator for both OASDI and SSI. SSA should specifically document the
error types included in each payment accuracy performance indicator.


SSA Response


We agree that SSA should measure payment accuracy in accordance with OMB and
GAO definitions, and we believe that our payment accuracy measures are in
accordance with both OMB’s and GAO’s guidelines. The data definitions that are
included in our fiscal year (FY) 2003 Annual Performance Plan (APP) were reviewed
with OMB to ensure compliance with their guidelines. We also believe that they meet
GAO’s general definition as GAO has been very actively involved in OASDI and SSI
payment issues.


With respect to the second part of the recommendation, “SSA should measure
preventable errors as a separate payment accuracy performance indicator for both
OASDI and SSI” and the specific items regarding payments after death and disability
determination decision errors based on medical factors, we do not agree.


The Agency has already established separate performance indicators for preventable
and unpreventable errors for the SSI program. We are required by statue, regulation or



Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                         E-3
court order to make certain payments that may later be determined to be recoverable
overpayments. We emphasize that these overpayments were not due to Agency or
beneficiaries caused error, but were required to be made by statue, regulation or court
order.


As OASI program overpayment accuracy rate for fiscal years (FYs) 2001 and 2000
were 99.98 percent and 99.96 percent, respectively. The OASI underpayment accuracy
rates for FYs 2001 and 2000 were 99.78 percent and 99.89 percent, respectively. Even
if SSA devotes additional resources to improve the rate of payment accuracy in the
OASI program, any improvement in payment accuracy may not be discernible in SSA’s
quality assurance reviews. Therefore, we believe it is not necessary or appropriate for
us to establish a separate performance indicator for preventable and unpreventable
errors in OASI.


With respect to errors based on medical factors, we already have a separate
performance indicator for Disability Determination Services medical decisional accuracy
and do not believe medical accuracy should be part of this measure. Due to the
fundamental differences in the decision making process at the initial claims and appeals
levels, a combined indicator would result in an inaccurate measure. The separate
indicators provide data that is more realistic and useful for managing the disability
program. Our position is that the medical improvement review standard and prospective
ineligibility are part of the current law, and that payments made in accordance with
current law are, by definition, not erroneous. The current law was enacted in the mid-
1980s following extensive debate and public comment around these controversial
issues and after several years of moratorium on continuing disability reviews.


The legislative history in the area is very clear. Prior to the 1984 amendments, the law
had permitted termination of benefits using a standard which included correcting prior
error on medical issues. That is, a person could be told he or she was eligible for
benefits one day and ineligible the next, without any changes in their medical condition.
The new law required the much higher stand of evidence of medical improvement
before a termination could be effectuate. The law eliminated what was seen as a kind
of double jeopardy. This is especially sensitive issue given the subjective nature of the
allow/deny decision and the fact that two adjudicators can reach opposites decisions on
the same record.


We will continue to carry the medical decisional accuracy separately as we recognize its
strategic importance to the Agency.


The third part of the recommendation calls for SSA to specifically document the error
types included each payment accuracy performance indicator. We agree that it is
appropriate to have documentation of the types of error included in SSA’s payment


Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                           E-4
accuracy review, and the documentation already exists in SSA’s quality assurance
manuals. Specifically, the manuals define the specific types of errors that are to be
recorded in the review process to measure the percentage of dollars paid that are
accurately paid, overpaid or underpaid. Our payment accuracy review system has been
audited several times by both GAO and OIG to ensure that it utilizes an appropriate and
comprehensive methodology and provides accurate projections of overpayment and
underpayment error. In addition our OASDI and SSI payment accuracy (stewardship)
reports include the basic types of error that occur, and SSA’s APP contains the data
definitions of how the error rates are calculated for the payment accuracy performance
indicators.


Technical Comments


Page 1 shows two payment accuracy measures for FY 2002, but page 7 references
three measures. To be consistent, page 1 should probably show all three measures,
and the names of the SSI payment accuracy measures should be cited exactly the way
they are printed in the Performance Plan for FY 2003 and Revised Performance Plan
for Fiscal Year 2002.




Performance Indicator Audit: Payment Accuracy (A-15-02-11086)                      E-5
                   Overview of the Office of the Inspector General


                                         Office of Audit


The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations, and cash flow. Performance audits review
the economy, efficiency, and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress, and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency.

                                Office of Executive Operations

The Office of Executive Operations (OEO) provides four functions for the Office of the
Inspector General (OIG) – administrative support, strategic planning, quality assurance, and
public affairs. OEO supports the OIG components by providing information resources
management; systems security; and the coordination of budget, procurement,
telecommunications, facilities and equipment, and human resources. In addition, this Office
coordinates and is responsible for the OIG’s strategic planning function and the development and
implementation of performance measures required by the Government Performance and Results
Act. The quality assurance division performs internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from the Agency.
This division also conducts employee investigations within OIG. The public affairs team
communicates OIG’s planned and current activities and the results to the Commissioner and
Congress, as well as other entities.

                                     Office of Investigations

The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                               Counsel to the Inspector General

The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
